WAIVER

Supreme Court of the United States

No. 20-6064
Alan Justin Smith ve Washington
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
{Please enter my appearance as Counsel of Record for all respondents.

Q There are multiple respondents, and 1 do not represent all respondents. Please enter my
appearance as Counsel of Record for the fallowing respondent(s):

 

{ Iam a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court, Should a response be requested,

the response willbe filed by a. 7 me
Signature 2?

Date; _ 11/6/2020

(Type or print) Name. Seth A. Fine
Bi Mr. O Ms. OMrs. O Miss

Firm___ Snohomish County Prosecutor's Office

 

Address__3000 Rockefeller Ave. M/S 504

 

City & State__Everett, WA Zip 9820
Phone __ 425-388-3333

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED,

Ce: Alan J. Smith
Coyote Ridge Corrections Center
P.O. Box 769
Connell, WA 99326-0769

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
